February 9, 2007

BILL ALMARAZ
MANAGER, LOS ANGELES CUSTOMER SERVICE DISTRICT

SUBJECT:     Audit Report – Timeliness of Mail Processing at the Los Angeles,
             California, Processing and Distribution Center
             (Report Number NO-AR-07-001)

This report presents the results of our audit of the Los Angeles, California, Processing
and Distribution Center (P&DC), located in the Pacific Area (Project Number
06XG046NO000). Our objective was to determine whether mail was processed in a
timely manner. We conducted this audit in response to a congressional inquiry.

The audit confirmed that during the period July 2005 through May 2006, the Los
Angeles P&DC had difficulty with the timely processing of mail, resulting in mail delays
and service declines. However, the Los Angeles P&DC has made significant
improvements and, as of August 2006, the Los Angeles Customer Service District met
or exceeded national service score averages. Specifically, we found that delayed mail
has been significantly reduced since May 2006 (the month used as the basis of the
inquiry). In addition, the Los Angeles P&DC had less delayed First-Class Mail®, Priority
Mail® and Package Services Mail® than similar-sized facilities but more delayed
Standard Mail® and Periodicals, indicating that improvements were still necessary in
the timely processing of these types of mail.

We made two recommendations in the report. Management agreed with our
recommendations and has taken action to address the issues in this report.
Management’s comments and our evaluation of these comments are included in the
report.

The U.S. Postal Service Office of Inspector General (OIG) considers all
recommendations significant, and therefore requires OIG concurrence before closure.
Consequently, the OIG requests written confirmation when corrective actions are
completed. These recommendations should not be closed in the follow-up tracking
system until the OIG provides written confirmation the recommendations can be closed.
We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Robert J. Batta,
Director, Network Operations - Processing, or me at (703) 248-2100.
 E-Signed by Colleen McAntee
ERIFY authenticity with ApproveI



Colleen A. McAntee
Deputy Assistant Inspector General
 for Core Operations

Attachments

cc: Patrick R. Donahoe
    Anthony M. Pajunas
    Michael J. Daley
    Drew T. Aliperto
    Deborah A. Kendall
Timeliness of Mail Processing at the Los Angeles,                       NO-AR-07-001
 California, Processing and Distribution Center



                                     TABLE OF CONTENTS

 Executive Summary                                                                 i

 Part I

 Introduction                                                                     1

     Background                                                                   1
     Objective, Scope, and Methodology                                            1
     Prior Audit Coverage                                                         2

 Part II

 Audit Results                                                                    3
   Assessment of the Timeliness of Mail Processing at the Los Angeles             3
      Processing and Distribution Center
   Recommendations                                                               14
   Management’s Comments                                                         14
   Evaluation of Management’s Comments                                           14

 Appendix A. Pacific Area Customer Service Districts by Three-Digit ZIP          15
             Code Area
 Appendix B. Prior Audit Coverage                                                16
 Appendix C. Comparison of Los Angeles Processing and Distribution Center’s
             Delayed Mail Percentages to the Average of Other Group 1
             Facilities, October 2004 through August 2006                        17

 Appendix D. Management’s Comments                                               18
Timeliness of Mail Processing at the Los Angeles,                      NO-AR-07-001
 California, Processing and Distribution Center



                    CHART, TABLES, AND ILLUSTRATIONS
 Chart 1. Downtime on Flat Sorting Machines at Los Angeles P&DC, January        10
          through August 2006

 Table 1. Los Angeles P&DC: Total Delayed Mail by Class, May through             4
          August 2006
 Table 2. Comparison of Los Angeles P&DC’s Volume, Employee Complement,          8
          and Overtime Before and After the Marina P&DC Closure
 Table 3. Comparison of Los Angeles P&DC’s Volume, Employee Complement,          9
          and Overtime to National Average, FYs 2003 through 2005
 Table 4. Los Angeles Customer Service District’s Service Performance and       13
          Comparison to National Average Service Trends, October 2004
          through August 2006

 Illustration 1. Los Angeles P&DC’s Workroom Floor Was Generally Clear of        5
                Delayed Mail, August 28 through September 1, 2006
 Illustration 2. Los Angeles P&DC Mail Was Properly Color-Coded During Our       6
                Field Visit, August 28 through September 1, 2006
 Illustration 3. Periodicals Were Commingled with Standard Mail at Los          11
                Angeles P&DC, August 30, 2006
 Illustration 4. Delayed Periodicals at Los Angeles P&DC, August 30, 2006       12
Timeliness of Mail Processing at the Los Angeles,                                                      NO-AR-07-001
 California, Processing and Distribution Center




                                         EXECUTIVE SUMMARY
    Introduction                     The U.S. Postal Service Office of Inspector General
                                     reviewed the timeliness of mail processing operations at the
                                     Los Angeles Processing and Distribution Center (P&DC) in
                                     response to a congressional inquiry. The Los Angeles
                                     P&DC is located in the Los Angeles Customer Service
                                     District in the Pacific Area. The Los Angeles Customer
                                     Service District consists of the P&DC, the Worldway Airport
                                     Mail Center, and 137 post offices and stations. Before July
                                     2005, the district also included the Marina P&DC. This
                                     facility was closed in July 2005, and the majority of the mail
                                     processing volume was transferred to the Los Angeles
                                     P&DC.

    Results in Brief                 During the period July 2005 through May 2006, the Los
                                     Angeles P&DC has had difficulty with the timely processing
                                     of mail, resulting in mail delays and service declines.
                                     However, the Los Angeles P&DC has made significant
                                     improvements.

                                     •    The Los Angeles P&DC had a 52 percent decrease in
                                          the total amount of delayed mail from the month cited in
                                          the congressional inquiry1, May 2006, to the month of
                                          our review, August 2006.

                                     •    Compared2 to similar-sized facilities, the Los Angeles
                                          P&DC had less delayed First-Class Mail®, Priority Mail®
                                          and Package Services Mail® but more delayed Standard
                                          Mail® and Periodicals, indicating that improvements
                                          were still necessary in the timely processing of these
                                          types of mail.

                                     •    During our audit, the Los Angeles P&DC had effective
                                          internal controls over identifying and reporting delayed
                                          mail.

                                     Title 39, U.S.C. Part 1, Chapter 1, Section 101, states that
                                     the Postal Service “. . . shall provide prompt, reliable, and
                                     efficient services to patrons in all areas . . . .” In addition,
                                     the Postal Service Strategic Transformation Plan, dated

1
    The congressional inquiry, dated August 3, 2006, referred to the Mail Condition Report for May 4, 2006
2
    This comparison was based on the percentage of delayed mail to total first handling piece (FHP) volume.




                                                              i
Timeliness of Mail Processing at the Los Angeles,                                                         NO-AR-07-001
 California, Processing and Distribution Center




                                     September 2005, states, “The Postal Service will continue
                                     to provide timely, reliable delivery to every address at
                                     reasonable rates.”

                                     The excessive amount of delayed mail was due to the influx
                                     of mail volume as a result of closing the Marina P&DC; the
                                     retrofitting of flat sorting machines,3 which caused a
                                     temporary increase in machine downtime; and deficiencies
                                     in processing Periodicals and Standard Mail.

                                     As a result, the Los Angeles P&DC had experienced
                                     substantial service declines but as of August 2006, the Los
                                     Angeles Customer Service District had met or exceeded
                                     national averages for service standards.

    Summary of                       To improve the timely processing of mail, we recommend
    Recommendations                  the Manager, Los Angeles Customer Service District,
                                     correct deficiencies in the processing of Periodicals and
                                     Standard Mail and continue monitoring and adjusting mail
                                     processing operations to ensure that all mail is processed in
                                     a timely manner.

    Summary of                       Management agreed with our findings and
    Management’s                     recommendations. They agreed to correct deficiencies in
    Comments                         the processing of Periodicals and Standard Mail. They also
                                     agreed to continue monitoring and adjusting mail processing
                                     operations to ensure that all mail is processed in a timely
                                     manner. Management’s comments, in their entirety, are
                                     included in Appendix D of this report.

    Overall Evaluation of            Management’s comments are responsive to our
    Management’s                     recommendations. Management’s actions taken should
    Comments                         correct the issues identified in the report.




3
 A flat sorting machine sorts flat mail by ZIP Code. “Flat” is the general term for flat mail, so called because the large
mail is sorted without bending it so that the mail remains flat.




                                                              ii
Timeliness of Mail Processing at the Los Angeles,                                                      NO-AR-07-001
 California, Processing and Distribution Center


                                             INTRODUCTION
    Background                        The Los Angeles Processing and Distribution Center
                                      (P&DC) is located in the Los Angeles Customer Service
                                      District in the Pacific Area. The Los Angeles Customer
                                      Service District consists of the P&DC, the Worldway Airport
                                      Mail Center, and 137 post offices and stations. See
                                      Appendix A for a map of the Pacific Area.

                                      Before July 2005, the district also included the Marina
                                      P&DC. This facility was closed in July 2005, and the
                                      majority of mail processing volume was transferred to the
                                      Los Angeles P&DC. In fiscal year (FY) 2005, the Los
                                      Angeles P&DC processed 2.3 billion first handled pieces
                                      (FHP) using 3.9 million workhours, making it the fifth largest
                                      processing facility in the Postal Service network.

                                      The Postal Service considers mail delayed when it is not
                                      processed or dispatched to meet its programmed delivery
                                      day. The Postal Service recognizes that some delayed mail
                                      is expected, although no specific targets have been
                                      established for large plants.4

                                      The Postal Service defines service standards as "A stated
                                      goal for service achievement for each mail class. A Service
                                      Standard represents the level of service that the United
                                      States Postal Service strives to provide to customers. . .”5

    Objective, Scope, and             The objective of the audit was to determine whether the Los
    Methodology                       Angeles P&DC processed mail in a timely manner. To
                                      accomplish the objective, we reviewed selected processing
                                      operations, conducted interviews and observations, and
                                      analyzed mail volume, workhours, productivity, service
                                      scores, and delayed mail trends.

                                      We used computer-processed data from the National Work
                                      Hour Reporting System, Web Enterprise Information
                                      System, Web End of Run System, Web Mail Condition
                                      Reporting System, Management Operating Data System,
                                      Origin-Destination Information System, and the Enterprise
                                      Data Warehouse. We did not test controls over these
                                      systems. However, we checked the reasonableness of

4
  Handbook PO-420, Small Plant Best Practices Guidelines, November 1999 rated the most successful small plants
as those with "an average daily delayed volume of 4,000 or less." We could find no specific targets for large plants.
5
  The standards allow for ranges by mail class as follows: Priority Mail: 1-3 Days; First-Class Mail: 1-3 Days;
Periodicals: 1-7 Days; Package Services: 2-9 Days; and Standard Mail: 3-10 Days.
                                                             1
Timeliness of Mail Processing at the Los Angeles,                                   NO-AR-07-001
 California, Processing and Distribution Center


                                  results by confirming our analyses and results with Postal
                                  Service managers and multiple data sources.

                                  We conducted this audit from August 2006 through
                                  February 2007 in accordance with generally accepted
                                  government auditing standards and included such tests
                                  of internal controls as we considered necessary under
                                  the circumstances. We discussed our observations and
                                  conclusions with management and included their comments
                                  where appropriate.

   Prior Audit Coverage           We have issued six reports on delayed mail. These reports
                                  assessed the extent of delayed mail at various facilities that
                                  processed mail and examined internal controls over the
                                  reporting of delayed mail. (See Appendix B.)




                                                    2
Timeliness of Mail Processing at the Los Angeles,                                                    NO-AR-07-001
 California, Processing and Distribution Center


                                                 AUDIT RESULTS
   Assessment of the                 During the period July 2005 through May 2006, the Los
   Timeliness of Mail                Angeles P&DC had difficulty with the timely processing of
   Processing at the                 mail, resulting in mail delays and service declines.
   Los Angeles                       However, the Los Angeles P&DC has made significant
   Processing and                    improvements and met or exceeded published national
   Distribution Center               service score averages6 as of August 2006. Specifically:

                                     •   Delayed mail had been significantly reduced since
                                         May 2006 (the month used as the basis of the inquiry).

                                     •   The Los Angeles P&DC had less delayed First-Class,
                                         Priority, and Package Services Mail than similar-sized
                                         facilities but had more delayed Standard Mail and
                                         Periodicals, indicating that improvements were still
                                         necessary in the timely processing of these types of mail.

                                     •   Internal controls over identifying and reporting delayed
                                         mail were in place and effective.

                                     Title 39, U.S.C. Part 1, Chapter 1, Section 101, states that
                                     the Postal Service “. . . shall provide prompt, reliable, and
                                     efficient services to patrons in all areas . . .” In addition, the
                                     Postal Service Strategic Transformation Plan, dated
                                     September 2005, states, “The Postal Service will continue to
                                     provide timely, reliable delivery to every address at
                                     reasonable rates.”

   Delayed Mail Trends               At the time of our review, the Los Angeles P&DC had
                                     significantly reduced the amount of delayed mail. From
                                     May7 through August 2006, there was a 52 percent (7.4
                                     million pieces) decrease in the total amount of delayed mail.

                                     Table 1 shows the amount of delayed mail by class from
                                     May through August 2006. This table also shows the full
                                     decrease in delayed mail during the period.




6
  As of FY 2006, the Los Angeles Customer Service District exceeded two of the four national service score averages
and almost achieved national service averages for the other two categories. (See the section on Delayed Mail Impact
in this report.)
7
  May 2006 was the month used for the basis of the inquiry. The congressional inquiry referred to the Mail Condition
Report for May 4, 2006.

                                                           3
Timeliness of Mail Processing at the Los Angeles,                                                  NO-AR-07-001
 California, Processing and Distribution Center




                                 Table 1. Los Angeles P&DC:
                    Total Delayed Mail by Class, May through August 20068


                        Priority First-Class        Package                        Standard  Total for
      Month/Class        Mail        Mail           Services      Periodicals        Mail   All Classes

        May 2006           590       551,627           180         5,292,992      8,257,975 14,103,364


       June 2006            0        300,021             0         1,202,335      2,818,600       4,320,956


        July 2006           0         86,400             0         1,043,260      9,226,333 10,355,993


      August 2006           0         80,603             0         1,194,929      5,433,823       6,709,355

     Percentage
    Change, May to -100%               -85%           -100%           -77%           -34%            -52%
     August 2006



                                    Our observations also showed significant declines in
                                    delayed mail. The workroom floor was generally clear of
                                    delayed mail, as Illustration 1 shows.




8
 Delayed mail shown in the chart is based on first handling pieces we estimated by using National Revenue Pieces
and Weight percentages for each non guaranteed class of mail. Express Mail® was not included as it is a
guaranteed service. Source: Web-Enabled Enterprise Information System and Web Mail Condition Reporting
System.

                                                          4
Timeliness of Mail Processing at the Los Angeles,                                                    NO-AR-07-001
 California, Processing and Distribution Center




                 Illustration 1. Los Angeles P&DC’s Workroom Floor
       Was Generally Clear of Delayed Mail, August 28 through September 1, 2006




    Comparison to                    As a percentage of total mail volume, delayed mail for the
    Similar-Sized Facilities         Los Angeles P&DC was lower than the average for
                                     similar-sized (Group 1) facilities9 for First-Class, Priority, and
                                     Package Services Mail. For example, the average amount
                                     of delayed First-Class and Priority Mail from October 2004
                                     through August 2006 for the Los Angeles P&DC was
                                     xxxxxxxxxxxxxxxxxxxxxxxxxxxx, respectively, compared to
                                     the Group 1 averages of xxxxxxxxxxxxxxxxxxxxxxxxxxx.
                                     (See Appendix C.)

                                     However, the Los Angeles P&DC had a higher average for
                                     delayed Standard Mail and Periodicals. The average
                                     delayed Standard Mail from October 2004 through August
                                     2006 for the Los Angeles P&DC was 7 percent, compared to

9
  The Los Angeles P&DC is a Group 1 processing facility. A Group 1 facility processes the largest volume when
compared to other processing and distribution facilities. In August 2006, there were 35 other Group 1 processing
facilities.

                                                           5
Timeliness of Mail Processing at the Los Angeles,                                                       NO-AR-07-001
 California, Processing and Distribution Center


                                      the Group 1 average of 5 percent. The amount of delayed
                                      Periodicals was substantially higher, averaging almost
                                      22 percent compared to the Group 1 average of almost
                                      8 percent. This comparison indicates that the timely
                                      processing of Standard Mail and Periodicals needs
                                      improvement. (See Appendix C.)

     Internal Controls                The Los Angeles P&DC generally had effective internal
                                      controls over identifying and reporting delayed mail. We
                                      found that during our observations mail was properly color-
                                      coded.10 We examined 144 mail containers and found no
                                      color-coding deficiencies. Each container had the correct
                                      color-code tag showing the date and time of arrival.
                                      Illustration 2 shows mail bearing the proper color code
                                      during our observations.


              Illustration 2. Los Angeles P&DC Mail Was Properly Color-Coded
                 During Our Field Visit, August 28 through September 1, 2006




10
  The Postal Service uses color-coding to facilitate the timely processing, dispatch, and delivery of Standard Mail to
meet established service standards. Color-coding allows the mail to be put in sequence to ensure first-in, first-out
processing. Mail is properly color-coded when it bears a color-code tag showing the date and time the mail arrived at
the facility. In Illustration 2, the color-code tags, marked with arrows, are displayed on the front of the containers.
The green tag indicates that the mail must be processed by Wednesday.

                                                             6
Timeliness of Mail Processing at the Los Angeles,                                                         NO-AR-07-001
 California, Processing and Distribution Center


                                       The amount of delayed mail on-hand was accurately
                                       reported in the Web Mail Condition Reporting System11
                                       during our observations. We observed the count of mail at
                                       the Los Angeles P&DC on August 30, 2006. The count was
                                       accurate and reflected conditions on the workroom floor.
                                       We interviewed the employees responsible for counting the
                                       mail each morning. Both employees clearly understood the
                                       definition of delayed mail. We also noted that there was a
                                       system of controls in place for two levels of management
                                       (the Manager, Distribution Operations, and the Manager, In-
                                       Plant Support) to review inventories on the workroom floor
                                       and concur that counts of mail were accurate before data
                                       was entered into the Mail Condition Reporting System. We
                                       interviewed the Operations Support Specialist who was
                                       responsible for consolidating the count sheets, and we
                                       observed data entry into the system. We confirmed that the
                                       data entered matched the amounts recorded in the Web
                                       Mail Condition Reporting System.12

     Causes of Delayed                 We identified three major factors that adversely affected the
     Mail                              Los Angeles P&DC’s ability to process mail timely.
                                       Specifically:

                                       •   The July 2005 closure of the Marina P&DC caused a
                                           significant increase in workload at the Los Angeles
                                           P&DC.

                                       •   The February 2006 retrofiting of the flat sorting machines
                                           caused a temporary increase in machine downtime.

                                       •   There were deficiencies in the processing of Periodicals
                                           and Standard Mail.


     Marina P&DC Closure               The closure of the Marina P&DC had a substantial impact on
                                       the Los Angeles P&DC mail processing operations because
                                       of the influx of mail volume and displaced employees.




11
   The Web Mail Condition Reporting System is a repository of information about the facility’s mail conditions. These
conditions are related to inventories of delayed mail and on-hand mail. A virtual daily snapshot of mail conditions at
facilities nationwide is taken at the end of the processing day. Mail is considered delayed if it is not processed in time
to meet its critical transportation dispatch. This information is entered in the Web Mail Condition Reporting System
and is available to Postal Service officials at all levels for analysis, forecasting, and planning.
12
   Management also began taking corrective action based on the information recorded in the Web Mail Condition
Reporting System. (See the section on Postal Service Action in this report.)

                                                              7
Timeliness of Mail Processing at the Los Angeles,                                   NO-AR-07-001
 California, Processing and Distribution Center




                                  For example, delayed mail increased from 7.98 million
                                  pieces in June 2005, the month before the Marina P&DC
                                  closed, to over 21 million in July 2005, the month after the
                                  facility was closed. This was a 165 percent increase in
                                  delayed mail.

                                  Table 2 shows the impact of the Marina P&DC closure by
                                  comparing volume, employee complement, and overtime
                                  1 year before the closure and in the year immediately
                                  following the closure. As shown in Table 2, FHP volume
                                  increased by 30 percent, the employee complement
                                  increased by 19 percent, and overtime increased by
                                  69 percent.


    Table 2. Comparison of Los Angeles P&DC’s Volume, Employee Complement,
               and Overtime Before and After the Marina P&DC Closure

                                    Before Marina    After Marina P&DC
                                    P&DC Closure           Closure
                                  (June 2004 to June (July 2005 to July         Percentage
                                         2005)              2006)                Increase


           FHP Volume                 2,306,410,371         3,005,677,678           30%



             Average
                                           1,949                2,323               19%
           Complement



         Overtime Hours                  434,104               735,056              69%



                                  The impact of the Marina P&DC closure became even more
                                  apparent when volume, workhours, complement,
                                  productivity, and overtime were compared to the national
                                  average for all facilities that process mail. Table 3 shows
                                  that while the national average growth in volume from
                                  FYs 2003 to 2005 was almost 4 percent, volume at the Los
                                  Angeles P&DC increased almost 24 percent because of the
                                  Marina P&DC closure. In addition, the Los Angeles P&DC
                                  processed this 24 percent growth in mail volume with only a


                                                    8
Timeliness of Mail Processing at the Los Angeles,                                           NO-AR-07-001
 California, Processing and Distribution Center


                                         5 percent increase in workhours. In comparison, national
                                         volume grew nearly 4 percent with an approximate 5 percent
                                         increase in workhours.

                                         Productivity for the Los Angeles P&DC improved
                                         17.5 percent, while national productivity declined by
                                         1 percent. The comparison with the national average shown
                                         in Table 3 highlights the impact of the Marina P&DC closure
                                         on mail processing at the Los Angeles P&DC.

        Table 3. Comparison of Los Angeles P&DC’s Volume, Employee Complement,
                  and Overtime to the National Average,* FYs 2003 to 200513

                                                                     Los Angeles
                                             National                   P&DC
                                            Percentage               Percentage     Percentage
                                             Change                    Change       Difference

               FHP Volume                        3.7%                     23.7%       20.01%

                Workhours                        4.8%                     5.27%         .51%

              Productivity
                                                -1.0*%                    17.5%       18.53%
            (FHP/Workhours)
                Employee
                                               -12.6*%                    12.5%       25.11%
               Complement
                  Overtime                      59.2%                    128.1%       68.92%
                  *Negative numbers indicate a decrease in productivity and employee complement.

      Retrofitting of Flat               In February 2006, the Los Angeles P&DC began the
      Sorting Machines                   process of retrofitting the flat sorting machines, which
                                         created a temporary challenge to the timely processing of
                                         mail. Retrofitting required the machines to be withdrawn
                                         from service, which increased machine downtime and
                                         adversely affected the Los Angeles P&DC’s ability to
                                         process flat mail timely.14

                                         From January to February 2006, delayed mail increased
                                         44 percent – from 16 million to 23 million pieces. However,
                                         once the retrofitting was completed, flat sorting machine
                                         operations improved. Chart 1 shows trends in machine

13
     FY 2005 was the last completed fiscal year during our audit period.
14
     Flat mail may include Priority, First-Class, Periodicals, and Standard Mail.

                                                                 9
Timeliness of Mail Processing at the Los Angeles,                                   NO-AR-07-001
 California, Processing and Distribution Center


                                  downtime. The chart shows that downtime increased after
                                  February 2006.


                        Chart 1: Downtime on Flat Sorting Machines at
                       Los Angeles P&DC, January through August 2006


               450
               400
       Hours




               350
               300
               250
               200
                       Ja                    M              M                Ju
                          n                   ar                ay              l

                                                    Downtime



   Periodicals Processing         The Los Angeles P&DC also needed to improve the
                                  processing of Periodicals. Periodicals were delayed
                                  because they were commingled with Standard Mail, and the
                                  Los Angeles P&DC could not readily identify and expedite
                                  Periodicals to meet the higher service standards required.
                                  (See Illustration 3.)




                                                    10
Timeliness of Mail Processing at the Los Angeles,                                                    NO-AR-07-001
 California, Processing and Distribution Center




                           Illustration 3. Periodicals Were
        Commingled with Standard Mail at Los Angeles P&DC, August 30, 200615




                                     When the Automated Package Processing System was
                                     installed at the Los Angeles Bulk Mail Center (BMC) in
                                     May 2006, Periodicals and Standard Mail received at the
                                     Los Angeles P&DC were dispatched to the BMC for
                                     processing. At the BMC, Periodicals and Standard Mail
                                     were commingled because BMC supervisors were unfamiliar
                                     with processing Periodicals. Illustration 4 shows delayed
                                     Periodicals we found during our observations.




15
  The container shown in Illustration 3 includes Periodicals labeled as “2C” (Second Class Mail) and Standard Mail
labeled as “Std A.”

                                                           11
Timeliness of Mail Processing at the Los Angeles,                                                   NO-AR-07-001
 California, Processing and Distribution Center




           Illustration 4. Delayed Periodicals at Los Angeles P&DC, August 30, 2006




      Delayed Mail Impact             As a result of the delays, service performance at the Los
                                      Angeles Customer Service District declined significantly
                                      from FY 2004 levels. For example, in FY 2004, Los Angeles
                                      was above the national average service scores in all service
                                      categories.16 In comparison, 1 year later, the Los Angeles
                                      Customer Service District was below national average
                                      scores in all categories except for the Two-Day category.
                                      However, since that time service scores have substantially
                                      improved. As of August 2006, the Los Angeles Customer
                                      Service District exceeded two of the national service
                                      average scores and almost met national service averages
                                      for the other two service categories, Overnight and Three-
                                      Day.




16
     Service categories include Overnight, Two-Day, Three-Day, and Two- and Three-Day categories.

                                                           12
Timeliness of Mail Processing at the Los Angeles,                                         NO-AR-07-001
 California, Processing and Distribution Center




                               The service rankings for the Los Angeles Customer Service
                               District showed a similar trend. For example, in FY 2004,
                               Los Angeles ranked 8th or lower in three of the four service
                               categories and 27th in one of the categories.

                               In FY 2005, 1 year later, the Los Angeles Customer Service
                               District was ranked as one of the lowest service performers
                               in three of the four service categories. However, by
                               August 2006, the Los Angeles Customer Service District
                               showed a substantial improvement in its overall ranking and
                               ranked no lower than 56th in any service category. (See
                               Table 4.)


   Table 4. Los Angeles Customer Service District’s Service Performance and
                Comparison to National Average Service Trends,
                         October 2004 to August 2006
                                                    Los Angeles
                                                      Ranking                      xxxxxxxxxxxxxx
     Service                                                      xxxxxxxxxxxxxx
                    Postal Quarter    Fiscal Year   Compared to                    xxxxxxxxxxxxxx
    Category                                                       xxxxxxxxxxx**
                                                      National                          xxxx
                                                      Ranking
                     QTD* August         2006         56 of 79        xxxxx            xxxxx
    Overnight         Quarter 4          2005         77 of 79        xxxxx            xxxxx
                      Quarter 4          2004         27 of 79        xxxxx            xxxxx
 Two- and Three-     QTD* August         2006         21 of 80        xxxxx            xxxxx
       Day            Quarter 4          2005         70 of 80        xxxxx            xxxxx
                      Quarter 4          2004          2 of 80        xxxxx            xxxxx
                     QTD* August         2006          6 of 78        xxxxx            xxxxx
    Two-Day           Quarter 4          2005         18 of 78        xxxxx            xxxxx
                      Quarter 4          2004          8 of 78        xxxxx            xxxxx
                     QTD* August         2006         53 of 80        xxxxx            xxxxx
    Three-Day         Quarter 4          2005         75 of 80        xxxxx            xxxxx
                      Quarter 4          2004          3 of 80        xxxxx            xxxxx
*Quarter to Date (QTD) 8/31/2006
**Bolded scores show that the Los Angeles P&DC score exceeded the national
average.

Postal Service Actions         Los Angeles P&DC management has taken action to
                               improve the timely processing of mail. A new plant manager
                               started in April 2006, after a series of four plant managers
                               over the past 3 years. In April 2006, management instituted
                               a system to immediately report potential mail delays to the
                               plant manager to determine what corrective action should be
                               taken. When the retrofitting of the flat sorting machine was
                               completed in July 2006, flat sorting machine operations also
                               improved.

                               In addition, an area-level task force was formed in August
                               2006 to assess mail flows and operations and make

                                                    13
Timeliness of Mail Processing at the Los Angeles,                                     NO-AR-07-001
 California, Processing and Distribution Center


                              recommendations to improve the timeliness of mail
                              processing. In August 2006, the Los Angeles BMC began
                              processing Periodicals and Standard Mail separately and
                              developed an operating plan to segregate this mail.
                              Separating these two mail classes and processing them
                              separately should reduce delayed mail at the Los Angeles
                              P&DC.

Recommendations               To improve the timely processing of mail, we recommend
                              the Manager, Los Angeles Customer Service District:

                                       1. Correct deficiencies in the processing of
                                          Periodicals and Standard Mail.

                                       2. Continue to monitor and adjust mail processing
                                          operations impacted by the influx in mail volume
                                          caused by the closure of the Marina Processing
                                          and Distribution Center to ensure that all mail is
                                          processed timely.

Management’s                  Management agreed with our findings and
Comments                      recommendations. They agreed to correct deficiencies in
                              the processing of Periodicals and Standard Mail and to
                              continue to monitor and adjust mail processing operations to
                              ensure that all mail is processed timely. Management’s
                              comments, in their entirety, are included in Appendix D of
                              this report.

Evaluation of                 Management’s comments are responsive to our
Management’s                  recommendations. Management’s actions taken should
Comments                      correct the issues identified in the report.




                                                    14
Timeliness of Mail Processing at the Los Angeles,          NO-AR-07-001
 California, Processing and Distribution Center




                                APPENDIX A
                     PACIFIC AREA CUSTOMER SERVICE
                  DISTRICTS BY THREE-DIGIT ZIP CODE AREA




                                       PACIFIC AREA MAP




                                                    15
      Timeliness of Mail Processing at the Los Angeles,                                      NO-AR-07-001
       California, Processing and Distribution Center




                                                APPENDIX B
                                           PRIOR AUDIT COVERAGE

               Audit                     Report Number          Issued Date                Audit Findings
Management Advisory – Las                 DR-MA-06-001          June 5, 2006    Delayed mail existed and
Cruces, New Mexico Delayed                                                      management had not taken timely
Mail                                                                            action to correct the problem.
Letter Carrier Delays in the              TD-AR-03-001          July 28, 2003   Letter carriers were delayed
Baltimore Customer Service                                                      because mail they were scheduled
District                                                                        to deliver – mail that came from the
                                                                                processing and distribution center –
                                                                                was not available to them.
Management Advisory – Delayed             TD-MA-03-002         March 19, 2003   Management was advised to take
Mail – Bridgecreek Station,                                                     corrective action on delayed mail
Wichita Falls, Texas                                                            noted at Bridgecreek Station.
Management Advisory – Certified           AC-MA-02-001           August 30,     Management took steps to improve
Mail Processing Operations at the                                  2002         certified mail processing operations
Sacramento Processing and                                                       during the 2002 tax season, which
Distribution Center                                                             may have helped reduce certified
                                                                                mail delays.
Management Advisory – Delayed             TD-MA-02-005           August 29,     Missent mail was rerouted to central
Letter Carrier Operations in the                                   2002         post office hub operations, which
Capital Metro Area                                                              delayed carrier operations.
Mail Processing Operations at             AC-AR-02-001          October 17,     Mail processing operations at New
New Haven Metropolitan Area                                        2001         Haven Metropolitan Area Post
Post Offices                                                                    Offices were satisfactory except for
                                                                                delayed Standard Mail. In addition,
                                                                                Standard Mail was not recorded
                                                                                and reported accurately in mail
                                                                                condition reports.




                                                          16
Timeliness of Mail Processing at the Los Angeles,                                                    NO-AR-07-001
 California, Processing and Distribution Center




                                               APPENDIX C
     COMPARISON OF LOS ANGELES PROCESSING AND DISTRIBUTION
       CENTER’S DELAYED MAIL PERCENTAGES TO THE AVERAGE OF
                    OTHER GROUP 1 FACILITIES,17
               OCTOBER 2004 THROUGH AUGUST 2006


                                                                           Average
                                         Percentage of                   Percentage of
                                           LA P&DC                       Group 1 Sites
                                         Delayed Mail                    Delayed* Mail
                                       Compared to Total                 Compared to
                                        Volume October                   Total Volume
                                        2004 to August                  October 2004 to
           Class of Mail18                   2006                         August 2006
           xxxxxxxxxxxxx                     xxxx                            xxxx
           xxxxxxxxxxxxx                     xxxx                            xxxx
           Periodicals Mail                  21.64                           7.83
            Standard Mail                    7.10                            5.41
          Package Services                   0.01                            0.40
                Total                        4.42                            3.16
*The average delayed percentage total for Group 1 sites does not include the Los
Angeles P&DC.




17
   The Los Angeles P&DC is a Group 1 processing facility. A Group 1 facility processes the largest volume
when compared to other processing and distribution facilities. In August 2006, there were 35 other Group 1
facilities.
18
   To determine the percentage of total volume that delayed mail represented by mail category, we used the
piece amounts from the Revenue, Pieces, and Weight System reports. These were the official Postal
Service estimates of its revenue, volume, and weight by mail class, subclass, and major special service for
postal Quarter III, FY 2006, ending June 30, 2006. The percentages by mail category were as follows:
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx, Periodicals
Mail 4.41 percent, Standard Mail 48.20 percent, and Package Services .50 percent. We applied these
percentages against FHP volume for each nonguaranteed class of mail for Function 1 for the Los Angeles
P&DC and for all Group 1 sites.

                                                      17
Timeliness of Mail Processing at the Los Angeles,        NO-AR-07-001
 California, Processing and Distribution Center




               APPENDIX D. MANAGEMENT’S COMMENTS




                                                    18
Timeliness of Mail Processing at the Los Angeles,        NO-AR-07-001
 California, Processing and Distribution Center




                                                    19
